audit report



Return to the USDOJ/OIG Home Page



Office of Justice Programs
Fiscal Year 1996
Rural Domestic Violence and Child Victimization
Grant to the Massachusetts Department of Public Health,
Bureau of Family and Community Health
GR-70-99-011
August 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grant number 96-WR-NX-0009 awarded by the U.S. Department of Justice, Office of Justice Programs (OJP) to the Massachusetts Department of Public Health, Bureau of Family and Community Health (the grantee).  The grantee received awards totaling $779,014  to enhance the safety of abused women and children living in rural areas by creating and enhancing partnerships between criminal justice agencies, victim service providers and community organizations, and to provide services to the victims of violent crimes committed against women and children.  The project period of the grant is October 1, 1996 to September 30, 1999.  As of June 21, 1999, the grantee had expended approximately $426,688 of grant funds.

	Our audit concentrated on, but was not limited to, the period October 1, 1996 through July 2, 1999.  We evaluated the administrative and financial controls established by the grantee and determined if costs charged to the grant were allowable, allocable, and reasonable.  For purposes of this review, we used:  the Office of Management and Budget (OMB) Circular A-102, Grants and Cooperative Agreements with State and Local Governments; OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments; OMB Circular A-133, Audits of States, Local Governments, and Non-Profit Organizations; and the OJP Financial Guide.

	Based on our audit, we found that the grantee properly managed the grant.

Costs charged to the grant were allowable, allocable, and reasonable.

	The grant objectives outlined in the application were being achieved.

	Progress Reports and Financial Status Reports were submitted as required by the grant.

However, we did identify deficiencies that are described in the Findings and Recommendations section of this report.  Our scope and methodology appear in the Appendix.